BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-315
JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,

Petitioners
V.

ALEJANDRO N. MAYORKAS, SECRETARY, UNITED
STATES DEPARTMENT OF HOMELAND SECURITY, ET
AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Human Rights Watch and
Alianza Americas as Amici Curiae in Support of
Petitioners contains 7,950 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on March 1, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
· Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said
Affiant on the date designated below.

[seal]

Notary Public

